CERTIFICATE OF SERVICE
No. 19-177
United States Agency for International Development, et al.,
Petitioners,
v.
Alliance for Open Society International, Inc., et al.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this fourth day of March,
2020, I caused three copies and an electronic copy of the Brief of Amici Curiae
Current and Former Members of Congress Supporting Respondents in the foregoing
case to be served by first class mail, postage prepaid, and by email, on the following
parties:
NOEL J. FRANCISCO
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
Counsel for Petitioners

DAVID WILLIAM BOWKER
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, D.C. 20006
david.bowker@wilmerhale.com
(202) 663-6558
Counsel for Respondents

/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

